                           SOCIAL SECURITY
                           Office of the Inspector General

                                  February 14, 2012


The Honorable Sam Johnson
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

In a June 16, 2011 letter, you asked that we provide you with information on
administrative law judges’ (ALJ) workloads, adherence to Social Security Administration
(SSA) policies and procedures, and related monitoring. In this report, we identify the
ALJs who were significant outliers either in terms of their productivity or decisional
allowance rates, examine factors that may account for variances, and determine the
effectiveness of management controls over ALJ adherence to the Agency’s policies and
procedures. A second report will address your concerns related to the constraints,
including statutory limitations, SSA faces in reviewing the decisions of ALJs and SSA’s
quality review systems for ALJ decisions.

Thank you for bringing your concerns to my attention. The report highlights various
facts pertaining to the issues raised in your letter. To ensure SSA is aware of the
information provided to your office, we are forwarding a copy of this report to the
Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison at (202) 358-6319.

                                        Sincerely,



                                        Patrick P. O’Carroll, Jr.
                                        Inspector General
Enclosure
cc:
Michael J. Astrue




             SOCIAL SECURITY ADMINISTRATION      BALTIMORE, MD 21235-0001
 CONGRESSIONAL RESPONSE
        REPORT

Oversight of Administrative Law Judge
          Workload Trends

             A-12-11-01138




             February 2012
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                          Background
OBJECTIVE
Our objectives were to identify the administrative law judges (ALJ) who were significant
outliers either in terms of their productivity or their decisional allowance rates, examine
factors that may account for variances, and determine the effectiveness of management
controls over ALJ adherence to the Social Security Administration’s (SSA) policies and
procedures.

BACKGROUND
An ALJ conducts an independent review of evidence related to each claimant’s case
and issues a final decision based on this evidence. Given the nature of the hearing
process, different ALJs may have different opinions on the same set of evidence.
Nonetheless, the Office of Disability Adjudication and Review’s (ODAR) process for
assigning cases to ALJs, as well as the standards related to the disposition of those
cases, should be consistently applied. These standards were designed to ensure
claimants are afforded a fair process regardless of where they are located.

In a June 16, 2011 letter, members of the Social Security Subcommittee requested the
Inspector General provide information on ALJs who are significant outliers either in
terms of their productivity or their decisional outcomes. For those ALJs identified, the
Subcommittee asked our office to determine what factors may account for any variance
in decisional allowances rates and productivity, as well as to provide information
regarding the allocation and related hearings on these cases. Moreover, the
Subcommittee requested that we assess the use and effectiveness of management
controls regarding ALJ adherence to SSA’s policies and procedures as well as any
constraints, including statutory limitations, which may make it difficult to ensure ALJ
adherence to these policies and procedures.1




1
  We are completing work on a separate report to evaluate (1) the constraints, including statutory
limitations, SSA faces in reviewing the decisions of ALJs, and (2) SSA’s quality review systems for ALJ
decisions. SSA Office of the Inspector General (OIG), The Social Security Administration’s Review of
Administrative Law Judges’ Decisions (A-07-12-21234).




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                     1
                                                        Results of Review
In Fiscal Year (FY) 2010, 1,398 ALJs issued between 1 and 3,620 dispositions. The
majority of these ALJs met or exceeded the Agency’s 500 to 700-case disposition
benchmark. A number of the ALJs with fewer dispositions were new to the Agency or
had duties in addition to adjudicating cases. Additionally, while the average decisional2
allowance rate for ALJs in FY 2010 was 67 percent, it ranged from a low of 8.6 percent
to a high of 99.7 percent nationwide. We reviewed the workload trends of 24 ALJs with
the highest and lowest allowance rates to better understand potential causes for these
variances. We also visited the hearing offices associated with these ALJs to discuss
workload processing. In our discussions with ODAR managers and visits to hearing
offices, we learned that the variances in allowances can be attributed to many factors,
most notably ALJ decisional independence and the demographics of claimants served
by the hearing office, such as their age, education, and available work. Qualified
judicial independence means that ALJs must be impartial in conducting hearings.
Because of such independence, ALJs are supposed to make decisions free from
agency pressure or pressure by a party to decide a case, or a particular percentage of
cases, in a particular way. We also found that ODAR established a new control to
ensure proper case rotation, though we identified a number of case rotation exceptions
at the hearing offices related to dismissals, on-the-record (OTR) decisions, and
frequency of claimant representation. While ODAR managers monitored ALJ
performance, this monitoring was limited to their progress in meeting established
productivity benchmarks. While we found only one instance in the last 5 years where
the Agency had initiated disciplinary action related to an ALJ’s workload performance,
SSA has taken other disciplinary actions against ALJs for insubordination of direct
orders or directives to timely process hearing cases.

PRODUCTIVITY AND DECISIONAL OUTCOMES
In our review, we found a wide variance in ALJ productivity and decisional outcomes in
FY 2010. We focused our review on ALJ decisional allowance rates related to
24 ALJs—the 12 ALJs with the highest allowance rates and the 12 ALJs with the lowest.




2
 ALJ decisions include favorable and unfavorable decisions, but exclude dismissals. See Appendix C for
more information on our ALJ selection methodology.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                2
ALJ PRODUCTIVITY

In FY 2010, 1,398 ALJs processed 683,430 dispositions.3 Dispositions per ALJ ranged
from a low of 1 to a high of 3,620. In 2007, ODAR established a benchmark for ALJs
that requested they process between 500 and 700 cases annually. 4 In FY 2010, about
59 percent of ALJs met or exceeded this benchmark (see Figure 1). A number of new
ALJs as well as ALJs with other duties did not meet this benchmark. 5,6 To ensure ALJs
were not deciding an excessive number of cases, ODAR managers were instructed to
limit new case assignments to 1,200 annually in FY 2012. 7 We found 8 ALJs issued
over 1,200 dispositions in FY 2010. These 8 included 1 ALJ who issued
2,102 dispositions and a second who issued 3,620 dispositions during the FY. The
number of ALJs issuing more than 1,200 dispositions dropped to 4 in FY 2011.




3
 While SSA processed 737,616 dispositions in FY 2010, we are not including 54,186 dispositions issued
by senior attorney adjudicators.
4
  In an October 2007 Memorandum, ODAR’s Chief ALJ identified expectations regarding the services
ALJs provide to the public. Mainly, he asked ALJs to issue 500 to 700 legally sufficient decisions each
year; act on a timely basis; and hold scheduled hearings unless there is a good reason to postpone or
cancel. SSA considers the 500 minimum decisions a goal, not a quota. In a December 2007
Memorandum, the Chief ALJ followed up on the earlier Memorandum and emphasized the importance of
legally sufficient hearings and decisions.
5
  ODAR’s workload reports identify ALJ full-time equivalents. As a result, ODAR’s methodology would
indicate that 74 percent of ALJs completed 500 or more disposition in FY 2010. However, for our review,
we did not use ALJ full-time equivalents. Rather, we obtained a data file from ODAR’s Case Processing
and Management System (CPMS) of issued dispositions. This data file identified the number of ALJs that
issued case dispositions each year. For example, the FY 2010 ODAR workload reports identified ALJ
full-time equivalents as 1,154. However, the data file identified 1,398 as issuing the 683,430 case
dispositions in FY 2010. These averages include dispositions issued by all ALJs each year, regardless of
whether the ALJ was full-time, part-time, new, or on extended leave or retired, separated, resigned, or
died in FY 2010. See Appendix C for more information on our methodology.

6
 In our January 2010 report, Congressional Response Report: Hearing Office Disposition Rates
(A-07-10-21015), we focused on lower performing ALJs.
7
 ALJ Performance: Hearing Before H. Ways and Means Subcommittee on Social Security and H.
                                                                                 th
Judiciary Subcommittee on the Courts, Commercial, and Administrative Law, 112 Cong. (July 11, 2011)
(Statement of the Record of Michael J. Astrue, Commissioner of Social Security).




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                     3
                                                      Figure 1: FY 2010 ALJ Dispositions
                                                               (Relates to 1,398 ALJs)

                                  > 1,200
                             1,100 - 1,199
                             1,000 - 1,099
                                900 - 999
     Range in Dispositions




                                 800-899
                                 700-799
                                 600-699
                                 500-599
                                 400-499
                                 300-399
                                 200-299
                                     <200

                                             0   50      100      150    200    250      300   350   400   450   500
                                                                           Number of ALJs

                               Note: FY 2010 CPMS closed case data and ODAR’s ALJ Disposition Data.

Earlier OIG work highlighted ALJ and hearing office productivity. In an August 2008
report, 8 we identified such factors as motivation and work ethic as reasons for varying
levels of ALJ productivity. The report also identified disability determination services
(DDS) case development, staff levels, hearing dockets, favorable rates, individual ALJ
preferences, and Agency processes as factors that could impact ALJ and hearing office
productivity and processing times.

ALJ ALLOWANCE RATES

Among the 1,256 ALJs with 200 or more dispositions in FY 2010, 9 the average
decisional allowance rate was about 67 percent. 10 However, ALJ allowance rates
ranged from a low of 8.6 percent to a high of 99.7 percent (see Figure 2).




8
 SSA OIG, Congressional Response Report: ALJ and Hearing Office Performance (A-07-08-28094),
August 2008.
9
 We excluded ALJs who had fewer than 200 dispositions to exclude ALJs who may be in a situation
where lower productivity is expected, such as ALJs with administration duties or part-time schedules, as
well as new ALJs and ALJs on extended leave (see Appendix C).
10
     See Appendix D for additional analysis of allowance rates from FYs 2004 through 2011.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                                  4
                                          Figure 2: FY 2010 ALJ Decisional Allowance Rates
                                            (Relates to 1,256 ALJs with at least 200 dispositions)
                      45

                      40

                      35

                      30
     Number of ALJs




                      25

                      20

                      15

                      10

                       5

                       0
                           1%
                                5%
                                     9%
                                          13%
                                                17%
                                                      21%
                                                            25%
                                                                  29%
                                                                        33%
                                                                              37%
                                                                                    41%
                                                                                          45%
                                                                                                49%
                                                                                                      53%
                                                                                                            57%
                                                                                                                  61%
                                                                                                                        65%
                                                                                                                              69%
                                                                                                                                    73%
                                                                                                                                          77%
                                                                                                                                                81%
                                                                                                                                                      85%
                                                                                                                                                            89%
                                                                                                                                                                  93%
                                                                                                                                                                        97%
                                                                          ALJ Decisional Allowance Rates

                       Source: FY 2010 CPMS closed case data and ODAR’s ALJ Disposition Data.

To better understand factors related to the varying allowance rates, we identified the
12 ALJs with the highest allowance rates as well as the 12 ALJs with the lowest
allowance rates in FY 2010. 11 The 12 ALJs with the highest allowance rates
(between 96.3 and 99.7 percent) were located in 12 hearing offices in 4 regions.
One-third of these ALJs was working in hearing offices in the New York Region and
one-fourth was in hearing offices in the San Francisco Region. These ALJs issued
between 371 and 967 dispositions in FY 2010.

The 12 ALJs with the lowest allowance rates (between 8.55 and 25.1 percent) were
located in 11 hearing offices in 6 regions.12 Of the 11 hearing offices, 6 were located in
the Dallas Region. These ALJs issued between 322 and 1,433 dispositions in FY 2010.




11
  We reviewed FY 2010 workloads so we had a full FY’s worth of allowances to better focus our selection
of ALJs. See Appendix C for more information on the selection of these ALJs.
12
     Two of these ALJs were located in the same hearing office.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                                                                                         5
FACTORS IN ALJ DECISIONAL RATES

We gathered information and perspectives from 218 staff, managers, and ALJs in
23 hearing offices 13 and all 10 regions to assess factors affecting ALJ allowance rates
and workload processing. The majority of the staff we interviewed attributed the
variance in allowance rates to ALJ decisional independence and discretion when
interpreting the law as well as the demographics of the hearing office service area
population.

Decisional Independence

In total, 138 respondents (63 percent) attributed variances in ALJ allowance rates
primarily to ALJ decisional independence and discretion. Qualified judicial
independence means that ALJs must be impartial in conducting hearings. 14 Because of
such independence, ALJs are supposed to make decisions free from agency pressure
or pressure by a party to decide a case, or a particular percentage of cases, in a
particular way. 15 Congress enacted the Administrative Procedure Act (APA) in 1946 16
to provide for judicial review of the actions of administrative agencies. 17 As part of the
APA, safeguards were put in place to ensure ALJ judgments were independent and
ALJs would not be paid, promoted, or discharged arbitrarily. 18 Hearing office staff
believed decisional independence and discretion could be influenced by an ALJ’s
background, previous work history, political views, and predispositions. For example,
one respondent stated that an ALJ with a prosecutorial background may have a
different predisposition than an ALJ with a legal aid background. 19

Demographics

In addition, 85 respondents (39 percent) cited regional demographics as factors that
could affect ALJ allowance rates. Cited demographics included (1) unemployment and
the state of the economy, (2) age and education of the population, and (3) type of
disability associated with available work. For example, one Alabama ALJ stated he

13
     Id.
14
  See 75 Fed. Reg. §§ 39154, 39156, Final Rules Setting the Time and Place for Hearing Before an
Administrative Law Judge, which discusses qualified judicial independence.
15
     Id.
16
     Pub. L. No. 79-404, 60 Stat. 237 (June 11, 1946) (codified in scattered sections of 5 U.S.C.).
17
     5 U.S.C. § 702.
18
     5 U.S.C. §§ 1305, 3105, 5372 and 7521.
19
  SSA hearings with the public have been characterized as inquisitorial rather than adversarial. For
example, in the administrative hearing, issues concerning evidence are usually more practical (the weight
assigned to certain evidence) rather than legal (whether to admit certain types of evidence).




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                   6
presided over cases involving disabled adult claimants with only a sixth- or seventh-
grade education. He stated that ALJs approve these types of cases more frequently
than other cases where similarly disabled claimants have a higher level of education.
Another ALJ suggested that claimants in regions with low unemployment were more
likely to be denied than similarly disabled claimants in areas with high unemployment. 20
A third ALJ noted that regional differences in available employment may lead to certain
types of disabilities. For example, some parts of California may have more farm-related
injuries than other parts of the United States.

Other Factors

Respondents cited other factors that might impact ALJ allowance rates. These factors
related to

      •   the amount of evidence in the file and how the case was developed,
      •   DDS allowance rates and case development,
      •   use of medical and vocational experts,
      •   pressure to complete a certain number of cases, and
      •   the claimant’s credibility as well as related evidence.

For instance, 7 ALJs mentioned that peers who felt pressured to meet the 500 to
700 disposition benchmark may have allowed more cases because allowances are
easier to process than denials. 21 The Agency has estimated that drafting a legally
sufficient decision, absent any special circumstances, should take about 4 hours for a
fully favorable decision and 8 hours for a partially favorable or unfavorable decision. 22

ANALYSIS OF WORKLOAD DATA

To determine whether the 24 ALJs were outliers in their respective offices, we
compared their allowance rates to those of their peers. We found the majority of the
ALJs in our sample aligned with the allowance rates of other ALJs at their location. For
instance, 11 of the ALJs with high allowance rates were in offices where the average
allowance rate of the other ALJs in the office was above the FY 2010 national average
allowance rate of 67 percent (see Table 1). Similarly, 11 ALJs with low allowances
were in offices where the average allowance rate of other ALJs in the office was below
the national average. Nonetheless, we still identified large variances within the same

20
  SSA’s Medical-Vocational Guidelines essentially indicate that the existence of jobs in the national
economy is reflected in the disability decision rules. 20 C.F.R. § 404, Subpart P, Appendix 2, §
200.00(b). The Agency’s June 2011 Vocational Expert Handbook also noted that vocational experts
should have up-to-date knowledge of, and experience with, industrial and occupational trends in local
labor markets conditions.
21
     See Appendix D for more information on trends related to allowance rates.
22
  Summary of Initiatives to Eliminate the SSA’s Hearing Backlog: Hearing Before S. Finance Committee,
   th
110 Cong. (May 23, 2007) (Statement of Michael J. Astrue, Commissioner of Social Security).




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                   7
hearing office. For instance, one Dallas Region hearing office had one ALJ with a
9-percent allowance rate and another with a 95-percent allowance rate—a variance of
86 percentage points.

                  Table 1: Allowance Rates of Other ALJs in the Office
                                              (FY 2010)
               Sample Offices with High                  Sample Offices with Low
                    Allowance ALJ                             Allowance ALJ
                              Other ALJ                                  Other ALJ
                                Average                                   Average
                              Allowance                                  Allowance
                                 Rate                                       Rate
              Hearing Office                            Hearing Office
                               (Percent)                                 (Percent)
             San Juan                87.92            Shreveport               37.42
             Brooklyn                83.54            Dover                    49.11
             South Jersey            82.79            Fresno                   57.50
             San Rafael              76.71            San Antonio              59.09
             Birmingham              74.84            Jacksonville             59.23
             Oakland                 74.67            Dallas (N)               59.55
             Kingsport               74.33            Dallas (N)               59.94
             Sacramento              73.92            Milwaukee                61.61
             Buffalo                 73.31            Dallas (DT)              62.70
             Tampa                   69.43            Creve Coeur              63.40
             Orlando                 68.18            Houston                  63.86
             Pittsburgh              59.79            Richmond                 67.15
            Note: The national average allowance rate for FY 2010 was about 67 percent.

We also found an alignment between productivity and allowance rates. For instance, of
the 12 high-allowance ALJs, 9 (75 percent) decided more cases than the average
productivity of the other ALJs in the office (see Table 2). For instance, the high-
allowance ALJ in one Florida hearing office decided more cases than all but one of his
peers. A similar trend existed among the low-allowance ALJs, with 8 of the
12 (67 percent) deciding fewer cases than the average of their peers. This alignment
between productivity and allowance rates is consistent with earlier OIG findings. 23




23
  Our August 2008 report, Congressional Response Report: Administrative Law Judges and Hearing
Office Performance (A-07-08-28094), stated that higher-producing ALJs had higher favorable rates than
lower-producing ALJs.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                   8
           Table 2: 24 ALJs’ Productivity Compared to Other ALJs in the Office
                                                (FY 2010)
             High Allowance ALJs                                Low Allowance ALJs
                      High                                               Low
                               Other ALJ                                         Other ALJ
                   Allowance                                          Allowance
       Hearing                  Average                  Hearing                   Average
                      ALJ                                                ALJ
        Office                 Decisions                  Office                 Decisions
                   Decisions                                           Decisions
 Buffalo                 382            333          Dallas (N)             269            465
 South Jersey            616            433          Dallas (N)             345            460
 Brooklyn                795            575          San Antonio            294            550
 Sacramento              432            465          Dallas (DT)            448            504
 Tampa                   596            444          Milwaukee              387            343
 Birmingham              465            512          Houston                421            429
 San Juan                514            469          Richmond               522            396
 Oakland                 343            310          Fresno                 372            406
 Orlando                 460            476          Shreveport            1,274           504
 San Rafael              469            436          Dover                  397            392
 Pittsburgh              446            445          Jacksonville           268            444
 Kingsport               750            573          Creve Coeur            385            469
Note: ALJ decisions include favorable and unfavorable decisions, but exclude dismissals.

CASE PROCESSING AND MANAGEMENT CONTROLS
ODAR has taken steps to improve the management of hearing office workloads and
control case assignment. Nonetheless, our interviews with hearing office staff, as well
as our data analysis, identified exceptions to case rotation, such as dismissals, OTR
decisions, and a disproportionate number of cases heard by one ALJ with a single
claimant representative that may indicate continuing issues with workload assignment.

Assignment of Cases

SSA’s policy states the Hearing Office Chief ALJ (HOCALJ) generally assigns cases to
ALJs from the master docket on a rotational basis, with the earliest (i.e., oldest) request
for hearings receiving priority, unless there is a special situation which requires a
change in the order in which a case is assigned. 24 In a September 2007 audit, 25 ODAR
managers and ALJs highlighted to us the benefits of the rotational policy, including it

•     ensures the appearance of fairness in that there is no pre-selection of ALJs by the
      claimant and/or his or her representative;


24
  SSA, Hearing, Appeals, and Litigation Law Manual (HALLEX) I-2-1-55 A—Assignment of Service Area
Cases to Administrative Law Judges (February 12, 2009).
25
     SSA OIG, Workload Activity at Five Hearing Offices in Region IV (A-12-07-27091), September 2007.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                   9
•     distributes the workload evenly thereby improving hearing office efficiency;
•     adheres to the Agency’s policy of public service and ensures claimants are treated
      fairly; and
•     keeps up office morale.

In June 2011, the Acting Chief ALJ issued a memorandum to all regions highlighting
new restrictions on case assignment and reassignment. This memorandum was
followed by an update to CPMS 26 restricting the authority to assign cases from the
master docket to the HOCALJs, Hearing Office Directors (HOD), and group
supervisors. 27 While the assignment of cases was already the responsibility of the
hearing office management team, CPMS did not prevent ALJs from re-assigning cases
to themselves. During our hearing office visits, we found non-management staff was
still delegated the task of assigning and re-assigning cases to ALJs, 28 though the new
CPMS controls restricted ALJs from assigning themselves cases. According to ODAR,
hearing office managers have the option of delegating case assignment duties to the
master docket clerks and lead case technicians.

Dismissals

During our interviews, staff in seven hearing offices stated that certain types of
dismissals were primarily assigned to the HOCALJ instead of being rotated. Agency
policy 29 allows cases to be assigned out of first-in, first-out order, but states the
HOCALJ generally assigns cases to ALJs from the master docket on a rotational basis.
HOCALJs at three of these seven hearing offices stated that certain types of dismissals
were assigned directly to them: untimely dismissals, withdrawal dismissals, or
dismissals due to the absence of the reconsideration step. 30 Other ALJs at these seven
hearing offices believed these dismissals were assigned to the HOCALJs generally to



26
  CPMS is ODAR’s primary, Web-based system for (1) controlling and processing hearing claims and
(2) generating management information.
27
     This new control did not impact the FY 2010 hearing decisions that were the subject of this review.
28
   ODAR managers stated the new CPMS controls also restricted attorney advisors from assigning cases
to themselves.
29
  SSA, HALLEX I-2-1-55 A—Assignment of Service Area Cases to Administrative Law Judges.
(February 12, 2009).
30
  Untimely Dismissal—The request for hearing is untimely and no good cause is found by the ALJ.
Withdrawal Dismissal—Dismissal of the request for hearing because the claimant withdrew. HALLEX I-2-
4-90—Table of Dismissal Codes (July 22, 2005). In the third case, the ALJ will dismiss the case when the
appropriate level of appeal was the reconsideration stage and not the appeals stage. Program
Operations Manual System GN 03103.220 A.2—Hearing Dismissal (October 11, 1996).




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                      10
increase their productivity level because the HOCALJs had other administrative
duties.31

In December 2010, we issued a report that identified wide variances in regional
dismissal rates, particularly untimely dismissals. 32 Based on our recommendation, SSA
agreed to review these variances. This study, conducted by SSA’s Office of Quality
Performance (OQP), noted disagreement with 30 percent of the dismissals reviewed,
with the greatest disagreement related to withdrawal dismissals. The report provided
suggestions for improving dismissal quality.

OTR Decisions

We also found that OTR decisions were not always rotated among ALJs. Our analysis
of the 12 high-allowance ALJs identified 3 ALJs with a high percentage of OTR
dispositions. These OTR dispositions accounted for at least 72 percent of each ALJ’s
dispositions. 33 OTR decisions, which are generally favorable, occur when an ALJ has
determined a decision can be issued without a hearing. OTR decisions can also occur
when the claimant has waived the right to a hearing. All the hearing offices in our
sample also had senior attorney adjudicators, who can only issue OTR decisions. 34

The aforementioned 3 ALJs issued more than 500 dispositions, while deciding between
72 to 97 percent of their cases as OTRs. Moreover, these rates were not consistent
with other ALJs in the same office, as shown in Table 3.

                        Table 3: Comparison of Three ALJs’ OTR Rates
                           to Other ALJs in the Same Hearing Office
                                                 (FY 2010)
                                                                        OTR Range of
                                                OTR Rate
                                                                         Other ALJs
                         ALJ                    (Percent)
                                                                          (Percent)
                       ALJ #1                      72.3                   0.9 - 37.8
                       ALJ #2                      83.6                   1.4 - 17.7
                       ALJ #3                      96.8                   1.9 - 26.7
               Note: We calculated the OTR rate using ALJ decisions and not ALJ dispositions.

During our interviews, we learned that some ALJs did not like to handle OTRs and
preferred full hearings on all their cases. As a result, some offices have assigned
potential OTRs to specific ALJs to expedite processing. For instance, the ALJ with a

31
     Dismissals also count toward the annual processing goal of 500 to 700 cases.
32
 SSA OIG, Office of Disability Adjudication and Review Hearing Request Dismissal (A-07-10-20171),
December 2010.
33
     The other nine ALJs had an OTR disposition rates ranging from 5 percent to 37 percent.
34
     SSA OIG, Senior Attorney Adjudicator Program (A-12-10-11018), July 2011.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                               11
72-percent OTR rate stated that while claimant representatives were requesting OTRs,
not all the ALJs in the office were willing to consider an OTR.

Number of Cases with a Single Representative

Among the 24 ALJs, we found 1 ALJ with a high allowance rate who had a
disproportionate number of cases with a single claimant representative, indicating a
potential problem with case rotation in that office. As previously mentioned, cases
should be rotated to ALJs in first-in, first-out order to ensure a fair and equitable hearing
process. Because cases are assigned on a rotational basis, one ALJ should not receive
a disproportionate number of cases from any single claimant representative. While this
one ALJ conducted about 59 percent of his workload with one claimant representative,
we determined that under normal rotation procedures, only about 11 percent of the
ALJ’s workload should have related to this claimant representative.

The ALJ we spoke with about this workload situation stated that the high frequency of
hearings with this claimant representative was coincidental. The ALJ stated the
claimant representative had submitted a high volume of cases requesting OTR
decisions, which the ALJ believed was a priority workload. He also mentioned he was
unavailable for other workloads involving travel to remote sites as well as hearings with
another law firm. As such, the pool of cases that could be assigned to him was smaller
than those of his peers. At the time of our review, the ALJ stated he had ended this
practice, and OTR cases from this claimant representative were being rotated in a
normal fashion. 35 We shared our observations with the ALJ’s managers who said they
would review this workload anomaly. They also stated they were developing CPMS
reports that will allow them to track future anomalies. We plan to conduct a separate
review to identify relationships among ALJs and representatives.

Other Exceptions

While SSA policy notes some circumstances where one ALJ’s case can be reassigned
to another ALJ, we identified additional circumstances during our hearing office visits.
For example, Agency policy allows the HOCALJ to reassign a case if the ALJ who
conducted the hearing is not available to issue the decision due to death, retirement,
resignation, illness resulting in leave for at least 20 days, or other cause resulting in
prolonged leave of 20 or more days. 36 Cases can also be reassigned if the remand
states that another ALJ should conduct the remand process. 37 During our interviews,


35
     We did not detect any similar anomalies in the ALJ’s FY 2012 dispositions.
36
  SSA, HALLEX I-2-8-40—Administrative Law Judge Conducts Hearing but Is Unavailable to Issue
Decision (May 16, 2008).
37
  SSA, HALLEX I-2-8-18 B.4—Administrative Law Judge Decisions in Court Remand Cases
(June 16, 2006).




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                          12
we learned cases were also re-assigned when ALJs were absent fewer than the
required 20 days or the hearing office filled an ALJ’s travel docket at a remote location.

OVERSIGHT OF ALJ WORKLOAD
Management teams at the hearing offices and regions monitor ALJ productivity but do
not monitor allowance rates. SSA also periodic reviews ALJ decisions and recently
commissioned a study of the Agency’s adjudication process. While SSA has taken a
number of ALJ-related disciplinary actions in recent years, only one action was related
to workload performance.

Management Information Reports

Hearing office managers monitor ALJ productivity by using CPMS and related Disability
Adjudication Reporting Tools (DART) reports. For example, the hearing offices used
the Workload Summary by Status report to keep track of the hearing office pending
cases, status of the cases, 38 and number of cases assigned to each ALJ in the office.
The offices also used the Pending Case Listing and ALJ Workload and Performance
report to track the age of the case and the number of decisions issued by each ALJ.
While allowances and denials are also contained in CPMS, ODAR managers told us
they do not monitor ALJ allowance rates since they believe this would interfere with the
ALJs’ decisional independence. 39 Regional managers also stated that while hearing
office workloads are primarily monitored by the local managers, they will intervene when
an office or ALJ is not meeting productivity expectations.

ODAR managers at Headquarters stated they had created ad hoc DART reports to
monitor ALJs. For example, one ad hoc report monitors the frequency of ALJ
dispositions with any single claimant representative to ensure cases are being
appropriately rotated. However, they noted that this type of monitoring is difficult since
a single claimant representative may have more than one spelling of the firm or
individual’s name in the database. ODAR has taken some steps to improve the
consistency of these data in CPMS but stated more work is required.

ODAR has also created an application for ALJ’s called How Am I Doing?, which allows
ALJs to view their performance against other ALJs in their hearing office, their region,
and the Nation. The performance measures included ALJ disposition totals, the number
of cases scheduling, and average processing time. The application also indicated


38
  As part of CPMS, hearing office employees assign a status code to each claim as it moves through the
process. The status code identifies the processing stage and location of the claim. For example, a status
code may relate to pre-hearing or post-hearing actions. CPMS uses about 40 status codes to track and
process pending claims in the hearing offices.
39
 Regulations prohibit the agency from reviewing ALJ decisions based on the identity of the decision
maker or the identity of the office issuing the decision. 20 C.F.R. §§ 404.969(b)(1) and 416.1469(b)(1).




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                      13
whether hearing offices and regions were meeting workload goals. This system did not
specifically measure the ALJ against the 500 to 700-case processing goal.

Electronic Business Process

ODAR also developed a standardized electronic business process (eBP) to ensure
consistent case processing nationwide while creating management reports to monitor
that progress. The eBP was designed to improve the business process, manage
workloads, track cases, and control case assignment. To achieve these broad
objectives, the eBP initiative specifically sought to (1) facilitate timely and legally
sufficient hearings and decisions and (2) incorporate future improvements into the
business process. ODAR believes the advantages of the standardized process include
(1) providing consistent management information; (2) minimizing the need to constantly
“reinvent the wheel” when improvements are introduced into the business process;
(3) providing valuable information that translates “policy and procedures” into
“standardized hearing office practices”; and (4) maximizing the usefulness of CPMS,
DART reports, and eView 40 in controlling case assignment and tracking cases.

SSA’s OQP, which has assisted ODAR with this eBP initiative, completed a review of
12 hearing offices in 2011 to ensure they were consistently following established
procedures. At the time of our review, OQP was finalizing its report. An OQP manager
noted that his office plans to conduct additional reviews that will address case rotation
and other controls related to the hearing process.

Review of ALJ Decisions

Various SSA components review the quality of ALJ decisions and workloads. For
example, ODAR’s Office of Appellate Operations (OAO) has reviewed a sample of ALJ
allowances to identify potential shortcomings in ALJ processing. In addition, OQP
performs a periodic quality review of a sample of hearing decisions issued by ALJs to
assess the ALJ decision rationale. However, because of the high-level review their
work entails, neither the OAO nor OQP reviews are used to identify issues with
particular ALJs. We are completing a separate review on SSA’s quality review system
for ALJ decisions. 41

In December 2011, SSA commissioned the Administrative Conference of the United
States to study SSA’s adjudication process. Part of the study will review (1) the role of
the Appeals Council in reducing observed variances in ALJ decisional outcomes and
(2) measures the Agency can take to identify and address issues posed by “outlier”

40
  SSA’s eView is an application that enables users involved in case processing to view and/or print the
disability information contained in the Electronic Folder.
41
  SSA OIG, Congressional Response Report: The Social Security Administration’s Review of
Administrative Law Judge’s Decisions (A-07-12-21234).




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                     14
ALJs to reduce the observed variances and other irregularities, while also improving the
quality in ALJ decisions. 42 The study was expected to be completed in 2012.

ALJ Disciplinary Actions

In his July 11, 2011 testimony, 43 SSA’s Commissioner informed Congress that the
Agency had taken 60 disciplinary actions against ALJs since he became Commissioner
in 2007. 44 Furthermore, the Commissioner stated that during his tenure, ALJs have
been removed or have retired after actions were initiated (see Appendix E).

We reviewed these 60 complaints and found only 1 pending disciplinary action directly
related to ALJ workload performance. Specifically, in July 2011, SSA filed an action
with the Merit System Protection Board related to an ALJ’s slow case processing.
According to the Agency, this type of action had not been filed since the 1980s.45 The
remainder of the disciplinary actions were related to other issues, such as misuse of
Government credit cards and property, insubordination, or misconduct toward claimants
and coworkers. However, even these other issues can touch on workload performance.
For example, we found that 3 of the 16 disciplinary actions related to insubordination
involved ALJs who failed to follow directives for timely processing of hearing cases.




42
  The study will also address issues related to treating physician rules and the role of video hearings in
observed decisional variances.
43
  ALJ Performance: Hearing Before H. Ways and Means Subcommittee on Social Security and H.
                                                                                 th
Judiciary Subcommittee on the Courts, Commercial, and Administrative Law, 112 Cong. (July 11, 2011)
(Statement of the Record of Michael J. Astrue, Commissioner of Social Security).
44
   Michael J. Astrue was sworn in as Commissioner of Social Security on February 12, 2007 for a 6-year
term that expires on January 19, 2013.
45
  Our separate report, Congressional Response Report: The Social Security Administration’s Review of
Administrative Law Judge’s Decisions (A-07-12-21234), will also address some of the issues SSA
managers face when addressing ALJ performance.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                        15
                                                               Conclusions
We explored factors contributing to wide variances in ALJ allowance rates. ODAR
ALJs, managers, and staff attributed these variances to many factors, most notably
ALJ decisional independence and the demographics of claimants served by the specific
hearing office. While ODAR managers monitored ALJ performance, such monitoring
was limited to their progress in meeting established productivity benchmarks and did not
include a review of decisional outcomes. In addition, periodic quality reviews focus on
aggregate trends, not individual ALJ workloads. We found only one instance where the
Agency had initiated action specifically related to an ALJ’s workload performance.

We believe greater Agency attention is needed to ensure outliers in ALJ performance,
be it high or low, are monitored and the underlying work processes are periodically
reviewed. The SSA-commissioned study should also be helpful in determining how to
address these variances. While we believe the Agency should remain mindful of the
ALJs’ qualified decisional independence, it is possible that other unrelated factors could
be contributing to strong variations in workloads. We believe it is important that the
public have confidence in SSA’s hearings process. To the extent SSA management
can offer greater assurances as to the quality of this process, this confidence can be
further enhanced.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                   15
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Methodology for Administrative Law Judge Sample
APPENDIX D – Allowance Rates
APPENDIX E – Administrative Law Judge Disciplinary Actions




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)
                                                                       Appendix A

Acronyms
    ALJ                Administrative Law Judge

    APA                Administrative Procedures Act

    CPMS               Case Processing and Management System

    DDS                Disability Determination Services

    eBP                Electronic Business Process

    FY                 Fiscal Year

    HALLEX             Hearings, Appeals, and Litigation Law Manual

    HOCALJ             Hearing Office Chief Administrative Law Judge

    HOD                Hearing Office Director

    ODAR               Office of Disability Adjudication and Review

    OAO                Office of Appellate Operations

    OIG                Office of the Inspector General

    OQP                Office of Quality Performance

    OTR                On-the-Record

    SAA                Senior Attorney Adjudicator

    SSA                Social Security Administration




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable laws and Social Security Administration (SSA) policies and
    procedures, including the Office of Disability Adjudication and Review’s (ODAR)
    Hearings, Appeals, and Litigation Law Manual.

•   Reviewed previous Government Accountability Office and Office of the Inspector
    General reports relevant to this review.

•   Reviewed previous SSA studies and reviews performed by ODAR and SSA’s Office
    of Quality Performance.

•   Obtained workload statistics on administrative law judges (ALJ) from public sources
    and ODAR’s Case Processing and Management System (CPMS). We also
    performed reliability tests on data and calculated ALJ allowance rates for Fiscal
    Years (FY) 2010 and 2011 and determined the mean and median for ALJ allowance
    rates. We identified 24 ALJs for further review—12 with high allowance rates and 12
    with low allowance rates in FY 2010. See Appendix C for more on this methodology.

•   Visited 23 hearing offices to interview the 24 ALJs as well as other ALJs, managers,
    and staff in these offices. The interviews focused primarily on workload procedures
    and factors related to allowance rates.

•   Analyzed various workload trends related to the 24 ALJs and their offices, including
    dismissals, on-the-record decisions, and the frequency of ALJ hearings with a single
    claimant representative.

•   Contacted ODAR managers at the regional and Headquarters levels to discuss
    management controls over ALJ performance, management information, ALJ
    disciplinary actions, and other matters.

We found that FY 2010 and 2011 data were sufficiently reliable to meet our objective.
The entity audited was the Office of the Deputy Commissioner for Disability Adjudication
and Review. We conducted this performance audit from June through December 2011
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)
                                                                                   Appendix C

Methodology for Administrative Law Judge
Sample
We examined the Office of Disability Adjudication and Review’s (ODAR) administrative
law judge (ALJ) disposition data for Fiscal Year (FY) 2010 to determine the allowance
rates for ALJs. We also verified ODAR’s ALJ disposition data against Case Processing
and Management System (CPMS) data for FY 2010.

Decisional Rates

To calculate each ALJ’s allowance rate, we used ODAR’s published ALJ disposition
data and CPMS data for FY 2010. We performed reliability tests on both sets of data
for FY 2010 and found both sets to be sufficiently reliable to meet our objective.

To meet our objectives, we:

•   Identified 1,398 ALJs who issued at least 1 disposition in FY 2010.

•   Removed 142 ALJs who had fewer than 200 dispositions in FY 2010. We
    determined this cut-off number based on our August 2008 review of ALJ and
    Hearing Office Performance (A-07-08-28094). In this report, we identified ALJs with
    administration duties, part-time ALJs, new ALJs, and ALJs on extended leave as a
    factor for low productivity. More specifically, these factors were identified for ALJs
    who issued fewer than 200 dispositions during FY 2007. 1 This left us with
    1,256 ALJs who issued 200 or more dispositions in FY 2010.

•   Calculated the allowance rate (awards divided by decisions) for these ALJs to the
    2nd decimal point. We used ALJ decisions rather than dispositions—decisions
    include favorable and unfavorable decisions, but exclude dismissals.
    We calculated the average allowance rates for the 1,256 ALJs to be 67.2 percent.

Count of ALJs Deciding Cases

• ODAR’s workload reports identify ALJ full-time equivalents. However, for our review,
  we did not use ALJ full-time equivalents. Rather, we obtained a data file from
  ODAR’s CPMS of issued dispositions. This data file identified the number of ALJs
  who issued case dispositions each year. For example, the FY 2010 ODAR workload
  reports identified ALJ full-time equivalents as 1,154. However, the data file
1
 We excluded ALJs who had fewer than 200 dispositions to exclude ALJs who may be in a situation
where lower productivity is expected, such as ALJs with administration duties or part-time schedules, as
well as new ALJs and ALJs on extended leave.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                C-1
   identified 1,398 as issuing the 683,430 case dispositions in FY 2010. These
   averages include dispositions issued by all ALJs each year, regardless of whether
   the ALJ was full-time, part-time, new, on extended leave or retired, separated,
   resigned, or died in FY 2010. As a result, ODAR’s methodology would indicate that
   74 percent of ALJs completed 500 or more disposition in FY 2010.

• In our February 2008 report, Administrative Law Judge’s Caseload Performance
  (A-07-07-17072), we identified ALJs as partially available if they were reasonably
  expected to process fewer cases than fully available ALJs or were not employed by
  ODAR during the entire year. We determined that about 26 percent of the ALJs in
  FY 2006 were partially available because of other duties (such as, Hearing Office
  Chief ALJ [HOCALJ], Regional Chief ALJ [RCALJ], detail elsewhere, and union
  positions) or because they were present at ODAR less than the entire year (such as
  new hires, part-time employment, extended leave, retirement, resignation, death).
  Because of timeframes involved in our current audit, we were unable to reclassify all
  of the ALJs in ODAR during FY 2010.

Selection of 24 ALJs

Once we had a list of ALJ allowance rates, we

    1.   sorted the allowance rates from high to low;
    2.   identified the top 12 ALJs in both the highest and lowest allowance rate lists;
    3.   verified the identified ALJs were still with SSA and their locations; and
    4.   excluded 4 ALJs from the highest allowance rate list and 3 from the lowest
         allowance rate list because they were either no longer with the Agency or had
         moved to another hearing office (see tables C-1 and C-2).

                            Table C-1: Top 12 ALJs with the
                          Highest Allowance Rates in FY 2010
                                                                         High
                                                                      Allowance
           Count         Hearing Office                 Region           Rate
                                                                      (Percent)
             1     Kingsport                         Atlanta             99.73
             2     Pittsburgh                      Philadelphia          98.88
             3     San Rafael                     San Francisco          98.08
             4     Orlando                           Atlanta             97.83
             5     Oakland                        San Francisco          97.67
             6     San Juan                         New York             97.28
             7     Birmingham                        Atlanta             97.20
             8     Tampa                             Atlanta             97.15
             9     Sacramento                     San Francisco          96.99
             10    Brooklyn                         New York             96.98
             11    South Jersey                     New York             96.43
             12    Buffalo                          New York             96.34




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                  C-2
                           Table C-2: Top 12 ALJs with the
                          Lowest Allowance Rates in FY 2010
                                                                           Low
                                                                        Allowance
          Count         Hearing Office                  Region             Rate
                                                                        (Percent)
             1    Dallas (North)                      Dallas                8.55
             2    San Antonio                         Dallas               13.04
             3    Dallas (North)                      Dallas               12.24
             4    Dallas (Downtown)                   Dallas               13.62
             5    Milwaukee                         Chicago                20.67
             6    Houston                             Dallas               21.62
             7    Richmond                         Philadelphia            21.65
             8    Fresno                          San Francisco            23.92
             9    Shreveport                          Dallas               24.88
            10    Dover                            Philadelphia            24.94
            11    Jacksonville                       Atlanta               25.00
            12    Creve Coeur                      Kansas City             25.19

Hearing Office Interviews

To the extent possible, we interviewed nine individuals at each hearing office: three
ALJs (including the ALJ in our sample), the HOCALJ, Hearing Office Director (HOD),
one or two group supervisors, and two schedulers. We also interviewed 10 regional
management teams. As a result, we interviewed 218 ALJs, managers, and staff
(see Table C-3).

                        Table C-3: Total SSA Staff Interviewed
                                                            Number
                                Positions
                                                          Interviewed
                     ALJs                                        72
                     HOCALJs                                     23
                     HODs                                        23
                     Group Supervisors                           44
                     Schedulers                                  46
                     Regional Management Teams                   10
                     Total                                       218




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                   C-3
                                                                                    Appendix D

Allowance Rates
Our review of allowance rates on dispositions by administrative law judges (ALJ) and
senior attorney adjudicators (SAA) found that the average allowance rate had remained
relatively stable over the years, with Fiscal Year (FY) 2011 representing the lowest
allowance rate between FYs 2004 and 2011 (see Table D-1). SAAs can only issue
favorable on-the-record decisions.
                 Table D-1: Disposition and Decisional Allowance Rates
                                       (FYs 2004 to 2011)
                                                       Dispositional                Decisional
                                     1                  Allowances                  Allowances
  FY      Dispositions      Decisions    Allowances
                                                          (Percent)                  (Percent)
 20042       561,461         479,269       336,515          59.9                       70.21
 20052       605,003         518,489       377,625          62.4                       72.83
 20062       563,220         484,147       348,182          61.8                       71.92
 2007        547,951         471,762       340,036          62.1                       72.08
 2008        575,380         478,851       348,447          60.6                       72.77
 2009        660,842         557,771       403,980          61.13                      72.43
 2010        737,616         640,042       447,703          60.70                      69.95
 2011        793,563         682,548       446,367          56.25                      65.40
Note 1: Decisions are less than dispositions because they do not include dismissals. Allowance rates
were calculated by dividing allowances in each year by the relevant base, be it dispositions or decisions.
Note 2: Figures include Social Security Administration and Medicare cases.

To better understand ALJ-only allowance rates, we removed the SAAs’ dispositions
(see Table D-2). The average ALJ allowance rate dropped slightly after the SAA
program was implemented in FY 2008 and has continued to drop through FY 2011.

              Table D-2: ALJ Disposition and Decisional Allowance Rates
                                             (FYs 2004 to 2011)
                                                                  Dispositional       Decisional
                                         1                         Allowances         Allowances
  FY      Dispositions       Decisions          Allowances
                                                                    (Percent)          (Percent)
 20042       561,461           479,269            336,515              59.9              70.21
 20052       605,003           518,489            377,625              62.4              72.83
 20062       563,220           484,147            348,182              61.8              71.92
 2007        547,951           471,762            340,036              62.1              72.08
 2008        550,805           454,274            323,872             58.80              71.29
 2009        624,476           521,405            367,614             58.87              70.50
 2010        683,430           585,586            393,517             57.58              67.20
 2011        740,310           629,295            393,114             53.10              62.47
Note 1: Decisions are less than dispositions because they do not include dismissals. Allowance rates
were calculated by dividing allowances in each year by the relevant base, be it dispositions or decisions.
Note 2: Figures include Social Security Administration and Medicare cases.



CRR: Oversight of ALJ Workload Trends (A-12-11-01138)
                                                                                  Appendix E

Administrative Law Judge Disciplinary Actions
In his July 11, 2011 testimony, 1 the Commissioner of Social Security stated that the
Social Security Administration (SSA) had taken almost 60 disciplinary actions against
administrative law judges (ALJ) since he became Commissioner. 2 Furthermore, the
Commissioner stated that during his tenure, a number of ALJs had been removed or
had retired after charges were filed. 3 Figure E-1 illustrates the types of complaints filed
against these 60 ALJs.

                 Figure E-1: Type of Complaints Filed against 60 ALJs

                                                                        Misuse of Gov't Credit Card or
                                                                        Property (16 Cases)
                          2%    2%
                     3%                                                 Insubordination (16 Cases)
                3%
           5%
                                                     27%                Misconduct towards Claimant
                                                                        or Coworker (12 Cases)
    11%
                                                                        Time & Attendance (7 Cases)

                                                                        Outside Misconduct (3 Cases)

                                                                        System Securities (2 Cases)
     20%
                                                   27%                  Other (2 Cases)

                                                                        Privacy Act/ PII (1 Case)

                                                                        Low productivity (1 Case)




1
 ALJ Performance: Hearing Before H. Ways and Means Subcommittee on Social Security and H.
                                                                                 th
Judiciary Subcommittee on the Courts, Commercial, and Administrative Law, 112 Cong. (July 11, 2011)
(Statement of the Record of Michael J. Astrue, Commissioner of Social Security).

2
  Michael J. Astrue was sworn in as Commissioner of Social Security on February 12, 2007 for a 6-year
term that expires on January 19, 2013.
3
 We are completing work on a separate report to further analyze ALJ decisions and regulations. SSA
OIG, Congressional Response Report: SSA’s Review of Administrative Law Judges’ Decisions
(A-07-12-21234).




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                 E-1
When issues arise, SSA often takes non-disciplinary action, such as providing training,
providing oral or written counseling, 4 or issuing case-processing directives. 5 If an ALJ’s
conduct or performance does not change, SSA follows progressive discipline including
reprimand, 6 short-term suspension, long-term suspension, and removal. SSA can only
suspend or remove an ALJ after the Merit Systems Protection Board determines that
there is “good cause” for discipline. The 60 complaints had varying outcomes and
disciplinary actions against the ALJs. Figure E-2 illustrates the types of disciplinary
actions SSA took against the 60 ALJs.

                                   Figure E-2: Disciplinary Actions Taken against 60 ALJs
                                                   (Between 2007 and 2011)



                                 Other

                               Pending
    Types of Actions Taken




                               Removal

                             Retirement

                             Suspension

                             Reprimand

                                          0   5       10        15        20    25       30
                                                      Number of Actions Taken

Note: In the case where the action taken was other, the Agency originally sought suspension but the
case was later dismissed due to the ALJ's death.




4
 We do not have information concerning the counseling or training given to the 60 ALJs before the more
serious disciplinary actions.
5
  When an ALJ fails to timely take action on cases, SSA managers may issue directives. For instance,
SSA managers issue case-processing directives if an ALJ is not properly managing workloads. This
allows the agency to remind the ALJ of the responsibility to issue timely decisions, while also specifically
instructing the ALJ to move cases that have been with the ALJ longer than the expected benchmark. In
our review of the complaints, we found that 3 of the 16 related to insubordination involved ALJs who failed
to follow directives for timely processing of cases.
6
 A reprimand is a written disciplinary action that specifies the reason for the action. A written reprimand
specifies that the employee is subject to more severe disciplinary action upon any further occurrence of
an offense. The reprimand is maintained in the employee's personnel folder for up to 1 year.




CRR: Oversight of ALJ Workload Trends (A-12-11-01138)                                                   E-2
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
